                                                    NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: ~ 0 7 0 4 0 0 1 8                                                              Page 1of 2   .

          In Dec 2006, we learned a PI (the subject)l was under investigation by his home
                                                                               a
          institution for falsification. Specifically, he had prepared figure for a manuscript
          that was submitted to a research journal, and had carried out some processing on
          the data in the figure without mentioning or describing the processing in the
          manuscript. The journal referees alleged the subject's figure was falsified to better
          support the conclusions of the authors. The journal forwarded the referees'
          allegations to the authors' home institution, which began an investigation. We
          learned from a member of the investigation committee there was a possible
          connection to the subject's NSF proposal2 because two figures in the NSF proposal
          appeared similar to the one in the manuscript that was allegedly falsified.
          The committee described the subject's figure prbcessing as non-standard, although
          the subject argued the software he used comes loaded on new machines that take
          the measurements. Regardless, the committee concluded (1) the processing was
          non-standard; (2) the non-standard processing was neither mentioned nor described
          in the manuscript; and'(3) the reviewers were misled because of (1) and (2) into
          thinking they were seeing a pictorial representation of the raw data. In his
          rebuttal, the subject acknowledged he should have indicated the filtering, but he did
          not consider it a significant departure not to do so. To support his rebuttal, he
          indicated several papers that used processing similar to his. Ultimately, the
          committee concluded the original allegation of the journal referees was not
          substantiated because the subject did not selectively alter data in the figure; he
          processed all the data. However, the committee concluded the subject committed
          research misconduct in that his failure to disclose his use of non-standard
          processing misled the referees and amounted to falsification. The committee
          recommended taking no action other than informing the journal and the subject's
          new institution.3 Although the subject's former institution made a finding of
          falsification, the subject's new institution did not consider the action to be research
          misconduct. Nonetheless, the department Chair warned the subject it did not want
          to see similar allegations in the future.
          We asked several community researchers (external and an internal Program
          Manager) about the undisclosed filtering of data in a figure. The external




               3   Although the subject had made plans to leave   and go t o , he fully cooperated with
                    investigation.



NSF OIG Form 2 (1 1/02) -
                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A07040018                                                        Page 2 of 2


    researchers opined that regardless of how common the subject believes the image
    processing is, it is a very bad practice not to disclose it, but they did not conclude it
    rose to the level of research misconduct, provided the subject did not have a history
    of this bad practice. The Program Manager (PM) reviewed the proposal figure and
    two of the references the subject provided. I n both reference papers, the authors
    processed a figure, but i n both cases they also mentioned that fact, and i n one
    paper, they describe the processing. Specific to the proposal, the PM did not think
    the failure to mention the processing was serious because the figure was not crucial
    to the point the PI was emphasizing.
    Based on the responses of the community researchers and PM, together with the
    two institution responses, we conclude the subject's failure to mention the figure
    processing is a departure, but not a significant departure, from accepted community
    practices. Furthermore, the subject's relative inexperience i n the field, together
    with his cooperation with the investigation, supports our conclusion. We sent the
    subject a letter explaining the failure to disclose processing of a figure is a
    questionable research practice he should immediately discontinue. Accordingly,
    this case is closed.
